TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Progress Has Been Slow in Meeting
                 Homeland Security Presidential Directive–12
                              Requirements



                                           June 20, 2007

                              Reference Number: 2007-20-110




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             June 20, 2007


 MEMORANDUM FOR CHIEF, MISSION ASSURANCE AND SECURITY SERVICES


 FROM:                  (for) Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Progress Has Been Slow in Meeting Homeland
                             Security Presidential Directive–12 Requirements (Audit # 200620027)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) took the necessary actions to comply with Homeland Security Presidential Directive-12
 requirements. This audit was part of the statutory audit coverage under the Information Systems
 Programs area and is included in the Treasury Inspector General for Tax Administration Fiscal
 Year 2006 Annual Audit Plan.

 Impact on the Taxpayer
 The IRS has been experiencing delays in issuing new identification cards to employees and
 contractors that enhance security, reduce identity fraud, and protect the personal privacy of
 employees and contractors. Initially, the IRS was developing its own system for issuing the
 cards rather than joining with other Federal Government agencies that had already incurred much
 of the upfront costs associated with this effort. Consequently, the IRS was at risk of wasting
 taxpayer funds and delaying the implementation of this Presidential mandate.

 Synopsis
 On August 27, 2004, President Bush signed Homeland Security Presidential Directive-12, Policy
 for a Common Identification Standard for Federal Employees and Contractors. The Directive,
 which is to be implemented in several phases, established a new standard for issuing and
 processing Federal Government identification cards for entering Federal Government facilities
 and for accessing computer systems. In the first phase, Personal Identity Verification (PIV) I,
 the Office of Management and Budget required agencies to develop procedures no later than
                      Progress Has Been Slow in Meeting Homeland Security
                             Presidential Directive–12 Requirements



October 2005 for registering employees, issuing cards, and maintaining the card system. In the
second phase, PIV II, the Office of Management and Budget required agencies to demonstrate
their ability to issue the identification cards and be capable of issuing new cards to all new
employees and contractors no later than October 2006.
To satisfy the requirements of PIV I, the IRS completed its PIV I Procedures Manual on
October 27, 2005. This manual contains step-by-step instructions that address PIV I
requirements.
However, the IRS has been experiencing delays in meeting the requirements of PIV II. Initially,
the IRS was attempting to produce its own identification cards but had not demonstrated the
ability to issue them. Despite assigning 68 employees and contractors to this effort, the IRS had
not yet purchased the hardware and software necessary to produce the identification cards and
did not expect to complete the program until September 2010, 2 years after the Office of
Management and Budget mandated deadline.
The IRS stated, however, that it met the PIV II milestone because it contracted with the General
Services Administration (GSA) for 100 identification cards to meet the Office of Management
and Budget deadline, even though it did not plan to use the GSA to issue additional identification
cards after the PIV II milestone. The GSA is making its solution available to all Federal
Government agencies and, due to economies of scale, we believe the GSA should be able to
issue the cards less expensively than agencies that produce their own cards.
The IRS was continuing to develop its own system for issuing identification cards because it
believed it could issue cards that would meet all required technical specifications at less expense.
However, the IRS had not provided cost projections for this Department of the Treasury
initiative. The IRS also stated it believed it was in a better position than the GSA to produce and
distribute identification cards at all Department of the Treasury office locations, provide
compatible technology to identify and authenticate employees, and produce and distribute
identification cards for the large number of temporary employees the IRS hires during the tax
return filing season.
We believe the IRS was taking unnecessary risks, not only because its costs are likely to exceed
the GSA solution, but because it was taking resources away from tax administration duties,
increasing the likelihood of its cards being incompatible with other agencies, and likely will be
delivering its system later than other agencies. During the course of this audit, we made the
following recommendation to the IRS to consider the benefits of using a shared solution.

Recommendation
To reduce costs and to improve the likelihood of meeting the Office of Management and
Budget’s subsequent milestones for developing identification cards compliant with Homeland
Security Presidential Directive-12 requirements, we recommended during the course of the audit
                                                                                                    2
                     Progress Has Been Slow in Meeting Homeland Security
                            Presidential Directive–12 Requirements



that the Chief, Mission Assurance and Security Services, consider the benefits of using shared
solutions such as the one offered by the GSA for issuing identification cards to IRS employees
and contractors. Rather than spending resources on developing its own system, we
recommended the IRS coordinate with the GSA to resolve concerns and customize the GSA
solution to meet IRS needs.

Response
IRS management stated the Department of the Treasury Homeland Security Presidential
Directive-12 Program Management Office, with concurrence from the Department of the
Treasury Homeland Security Presidential Directive-12 Executive Steering Committee and the
Bureau Advisory Board, agreed with our recommendation. The Program Management Office
has discontinued development efforts for a Department of the Treasury-wide enterprise
Homeland Security Presidential Directive-12 solution. On May 18, 2007, a letter was issued to
the GSA stating the IRS’ intention to use the GSA services to the extent possible.
Management’s complete response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs) at
(202) 622-8510.




                                                                                                 3
                             Progress Has Been Slow in Meeting Homeland Security
                                    Presidential Directive–12 Requirements




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Internal Revenue Service Met the First Homeland Security
          Presidential Directive-12 Milestone .............................................................Page 3
          All Necessary Actions Were Not Taken to Fully Comply With
          Homeland Security Presidential Directive-12 ..............................................Page 3
                    Recommendation 1:..........................................................Page 5


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
          Appendix IV – Management’s Response to the Draft Report ......................Page 10
          Progress Has Been Slow in Meeting Homeland Security
                 Presidential Directive–12 Requirements




                     Abbreviations

GSA              General Services Administration
HSPD–12          Homeland Security Presidential Directive–12
IRS              Internal Revenue Service
PIV              Personal Identity Verification
                         Progress Has Been Slow in Meeting Homeland Security
                                Presidential Directive–12 Requirements




                                            Background

On August 27, 2004, President Bush signed Homeland Security Presidential Directive-12
(HSPD-12), Policy for a Common Identification Standard for Federal Employees and
Contractors. The Directive established a new standard for issuing and processing Federal
Government identification cards for entering Federal Government facilities and for accessing
computer systems. The Directive was designed to enhance security, reduce identity fraud, and
protect the personal privacy of employees and contractors issued Federal Government
identification. The National Institute for Standards and Technology1 developed Federal
Information Processing Standards Publication Personal Identity Verification (PIV) of Federal
Employees and Contractors (Publication 201), which contains the minimum standards,
recommendations, guidelines, and conformance tests for components for the Federal PIV project.
Essentially, the PIV project was initiated to standardize identification cards, perform background
checks of employees and contractors, and issue identification cards for accessing computer
systems.
Three other Federal Government agencies have specific responsibilities for implementing
HSPD-12 Governmentwide. The General Services Administration (GSA)2 is responsible for
assisting agencies in procuring and operating PIV subsystems such as employee identification
cards and biometric3 card readers. The Office of Management and Budget4 is responsible for
overseeing implementation of the Directive and is developing implementation guidance for
Federal agencies. Additionally, the Office of Personnel Management5 is responsible for assisting
agencies in authenticating and vetting applicants before they are provided identification cards.
Implementation of HSPD-12 will first be achieved in two phases. In the first phase, PIV I,
agencies must develop procedures for registering employees, issuing identification cards, and
maintaining the identification card system. In the second phase, PIV II, agencies must
demonstrate their ability to issue the identification cards and be capable of issuing new cards to
all new employees and contractors.

1
  Founded in 1901, the National Institute for Standards and Technology is a non-regulatory Federal agency within
the United States Commerce Department’s Technology Administration. Its mission is to promote national
innovation and industrial competitiveness by advancing measurement science, standards, and technology in ways
that enhance economic security and improve our quality of life.
2
  The GSA is an independent Federal agency that manages Federal property, records, and construction.
3
  Biometrics are automated methods of recognizing a person based on a physiological or behavioral characteristic.
Among the features measured are face, fingerprints, hand geometry, handwriting, iris, retina, vein, and voice.
4
  The Office of Management and Budget is the organization within the Executive Office of the President that
prepares and administers the Federal budget and improves management in the Executive Branch.
5
  The Office of Personnel Management manages the Federal Government’s human resources and its key
responsibilities include supporting agencies in recruiting, hiring, and retaining employees.
                                                                                                           Page 1
                      Progress Has Been Slow in Meeting Homeland Security
                             Presidential Directive–12 Requirements



The Office of Management and Budget established deadline dates6 for all Federal agencies to
become compliant, in stages, with HSPD-12:
    •   October 27, 2005 – Agencies must have been PIV I
        compliant.                                                    The first phase of HSPD-12
                                                                    required procedural guidelines
    •   October 27, 2006 – Agencies must have been PIV II             to be in place; the second
        compliant for Governmentwide uniformity and                  phase required identification
        interoperability.                                                    card issuance.

    •   October 27, 2007 – Agencies must verify and/or complete background investigations and
        issue identification cards for all employees with less than 15 years of service.
    •   October 27, 2008 – Agencies must verify and/or complete background investigations and
        issue identification cards for all employees with more than 15 years of service.
In addition to issuing identification cards, the Internal Revenue Service (IRS) will have to
integrate any new systems necessary to operate with the new identification cards into existing
security, personnel, and other systems. Agencies must consider numerous factors when
integrating multiple systems, including physical and logical access issues, privacy matters, and
software and hardware compatibility. For example, many card readers currently used for
physical access are using technology that is up to 20 years old and may not be compatible with
the technology necessary to use the new HSPD-12 cards. The Treasury Inspector General for
Tax Administration will continue to monitor these milestones as the IRS starts implementing the
program in more detail.
On March 24, 2006, the IRS assumed leadership of the Department of the Treasury HSPD-12
Program Management Office. In this role, the IRS is providing leadership to all 13 Department
of the Treasury bureaus in developing an integrated Department of the Treasury approach for
meeting HSPD-12 requirements.
This review was performed at the IRS National Headquarters in New Carrollton, Maryland, in
the office of the Chief, Mission Assurance and Security Services, during the period June through
December 2006. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




6
 Office of Management and Budget Memorandum M-05-24, dated August 5, 2005, Implementation of Homeland
Security Presidential Directive (HSPD)-12.
                                                                                                Page 2
                      Progress Has Been Slow in Meeting Homeland Security
                             Presidential Directive–12 Requirements




                                 Results of Review

The Internal Revenue Service Met the First Homeland Security
Presidential Directive-12 Milestone
The first HSPD-12 milestone required agencies to comply with the PIV I requirements by
October 27, 2005. Specifically, agencies were required to develop procedures for installing and
maintaining identification cards that:
   •   Are issued based on sound criteria for verifying an individual’s identity.
   •   Are strongly resistant to identity fraud, tampering, counterfeiting, and terrorist
       exploitation.
   •   Can be rapidly authenticated electronically.
   •   Are issued by providers whose reliability has been established by an official accreditation
       process.
To satisfy the requirements of PIV I, the IRS completed its PIV I Procedures Manual on
October 27, 2005. This manual contains step-by-step instructions organized into three main
process streams: identity proofing and registration, PIV identification card issuance, and PIV
identification card maintenance. This structure follows the organization of Publication 201 PIV I
requirements.
In addition, on October 24, 2005, the IRS appointed a Designated Accreditation Authority who
granted approval for its PIV identification card plan. The Designated Accreditation Authority
determined the Operations Plan and Procedures complied with Publication 201 PIV I
requirements and the privacy and security policies were acceptable. We agree with that
assessment.

All Necessary Actions Were Not Taken to Fully Comply With
Homeland Security Presidential Directive-12
To comply with PIV II, the Office of Management and Budget directed agencies to demonstrate
by October 27, 2006, their ability to issue the new identification cards. In addition, by that date
agencies were required to issue and require the use of identification cards for all new employees
and contractors. Currently, the IRS can do neither.
The IRS claims, however, that it met the milestone for PIV II because it contracted with the GSA
for 100 identification cards to meet the Office of Management and Budget deadline. The GSA

                                                                                             Page 3
                           Progress Has Been Slow in Meeting Homeland Security
                                  Presidential Directive–12 Requirements



had contracted with a vendor to develop an HSPD-12 solution all agencies could use that
included registering employees, ensuring their identities, and producing and issuing
identification cards.
The GSA produced the identification cards timely. While the cards contained errors such as the
wrong address and misspellings, they otherwise met Publication 201 guidelines.
The IRS stated it met the PIV II milestone, even though it did not
plan to use the GSA solution or any other solutions already
                                                                      The IRS is not yet capable of
available to Federal agencies. Instead, the IRS was attempting to       issuing new identification
produce its own identification cards but had not yet demonstrated    cards as required by HSPD-12.
its ability to do so. At least 68 employees and contractors were
assigned to the IRS HSPD-12 Program Management Office, but it
still had not purchased the hardware and software necessary to produce the identification cards
and did not expect to complete the program until September 2010, 2 years after the Office of
Management and Budget mandated deadline.
The IRS believed it could develop its own system to issue cards that meet all required technical
specifications at less cost than the GSA and it was in a better position to:
      •    Provide and distribute identification cards at all Department of the Treasury locations.
           The GSA plans to have over 225 enrollee stations (25 mobile) throughout the country that
           will service up to 80 percent of the Federal workforce, while the Department of the
           Treasury plans to have 80 enrollment stations. The IRS was concerned about the costs
           involved with employees having to travel to the GSA locations and the time it would take
           to issue the identification cards at these locations.
      •    Provide compatible technology to identify and authenticate employees. The previous
           GSA solution relied on technology that may not have been compatible with existing
           Department of the Treasury software that authenticates computer users’ identities.
      •    Provide and timely distribute identification cards for the large number of temporary
           employees the IRS hires for the annual tax return filing season.7 The IRS stated its hiring
           practices for temporary and other employees requires identification cards to be issued
           almost immediately after employees are hired, something they doubted the GSA solution
           could accomplish.
In addition to the error-prone cards it produced for the IRS, the GSA solution has also
experienced problems. Most significantly, the contract with its vendor was suspended and
production was consequently stopped. We believe the barriers mentioned by the IRS could be
overcome through coordination with the GSA. In addition, we believe the GSA solution, when
available, offers several advantages over the IRS approach. Specifically:

7
    The period from January through mid-April when most individual income tax returns are filed.
                                                                                                   Page 4
                     Progress Has Been Slow in Meeting Homeland Security
                            Presidential Directive–12 Requirements



   •   The GSA previously estimated the cost for a GSA-developed identification card to be
       approximately $110 plus annual maintenance costs of $52. As of April 10, 2007, the IRS
       has not provided cost projections for this Department of the Treasury initiative but we
       believe the cost could be substantially greater than GSA’s estimate. The GSA solution
       should be less expensive due to economies of scale. By producing cards for multiple
       agencies, the fixed costs for producing the cards can be allocated over a much greater
       number of cards, thus reducing the cost per card. The Department of Agriculture,
       Department of Commerce, and Department of Energy have already agreed to implement
       the GSA solution once it resumes operation.
   •   The IRS solution will require staffing resources to be devoted to developing, piloting, and
       implementing its system, taking resources away from tax administration duties, while the
       GSA solution will lessen the staffing resources needed to implement and develop the
       program.
   •   The GSA solution increases the likelihood that agencies have a consistent solution. All
       agencies will have to modify the cards to interface with their computer systems, but the
       GSA solution will help ensure consistency.
   •   The GSA solution is more likely to be implemented faster. Even with the GSA’s
       contracting delays, it still expects to award a contract by March 28, 2007, and begin
       issuing cards by June 2007, while, as we mentioned earlier, the IRS does not expect to
       complete deployment until September 2010, nearly 2 years after the Office of
       Management and Budget milestone.
   •   Once implemented, the GSA solution will offer a proven system, while the IRS may still
       be in the development stages. As a result, the IRS is taking an additional risk of delaying
       implementation.
In summary, the IRS was at risk of wasting taxpayer funds and delaying the implementation of
this Presidential mandate. During the course of this audit, we made the following
recommendation to consider the benefits of using a shared solution.

Recommendation
Recommendation 1: To reduce costs and improve the likelihood of meeting the Office of
Management and Budget’s subsequent milestones for developing identification cards compliant
with HSPD-12 requirements, we recommended during the course of this audit that the Chief,
Mission Assurance and Security Services, consider the benefits of using shared solutions such as
the one offered by the GSA for issuing identification cards to IRS employees and contractors.
Rather than spending resources on developing its own system, we recommended the IRS
coordinate with the GSA to resolve concerns and customize the GSA solution to meet IRS needs.


                                                                                           Page 5
             Progress Has Been Slow in Meeting Homeland Security
                    Presidential Directive–12 Requirements



Management’s Response: The Treasury HSPD-12 Program Management Office,
with concurrence from the Department of the Treasury HSPD-12 Executive Steering
Committee and the Bureau Advisory Board, agreed with the recommendation. The
Program Management Office has discontinued development efforts for a Department of
the Treasury-wide enterprise HSPD-12 solution. On May 18, 2007, a letter was issued to
the GSA stating the IRS’ intention to use GSA services to the extent possible.




                                                                                Page 6
                     Progress Has Been Slow in Meeting Homeland Security
                            Presidential Directive–12 Requirements



                                                                                 Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS took the necessary actions
to comply with HSPD-12 requirements. To accomplish this objective, we:
I.     Determined whether the IRS met the HSPD-12 requirements for Federal Information
       Processing Standards Publication 201 PIV I compliance by October 27, 2005.
       A. Compared the IRS’ procedures to Publication 201 standards for:
           1. Control objectives.
           2. Personnel identity proofing and registration.
           3. Card issuance and maintenance.
           4. Privacy.
           5. Background investigations.
       B. Determined whether the procedures were approved in writing.
       C. Determined whether the implementation plan was timely submitted and approved by
          the Office of Management and Budget.
II.    Determined whether the IRS had procedures in place to be PIV II compliant by
       October 27, 2006.
       A. Reviewed the IRS business case for PIV II compliance.
       B. Reviewed the IRS budget for HSPD-12.
       C. Reviewed the IRS infrastructure and procedures for the issuance of PIV cards.




                                                                                          Page 7
                    Progress Has Been Slow in Meeting Homeland Security
                           Presidential Directive–12 Requirements



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Steve Mullins, Director
Thomas Polsfoot, Audit Manager
David Brown, Senior Auditor
George Franklin, Senior Auditor
Jimmie Johnson, Senior Auditor




                                                                                         Page 8
                   Progress Has Been Slow in Meeting Homeland Security
                          Presidential Directive–12 Requirements



                                                                 Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Information Officer OS:CIO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Information Officer OS:CIO
       Chief, Mission Assurance and Security Services OS:MA




                                                                         Page 9
      Progress Has Been Slow in Meeting Homeland Security
             Presidential Directive–12 Requirements



                                                 Appendix IV

Management’s Response to the Draft Report




                                                        Page 10
Progress Has Been Slow in Meeting Homeland Security
       Presidential Directive–12 Requirements




                                                  Page 11
Progress Has Been Slow in Meeting Homeland Security
       Presidential Directive–12 Requirements




                                                  Page 12
